BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 20-748, PHI Air
Medical, LLC, v. Texas Mutual Insurance Company;
Hartford Underwriters Insurance Company; TASB
Risk Management Fund; Transportation Insurance
Company; Truck Insurance Exchange; Twin City Fire
Insurance Company; Valley Forge Insurance Company,
et al., was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent Next Day
Service and e-mail to the following parties listed
below, this 6th day of April, 2021:
James Michael Loughlin
Stone Loughlin & Swanson, LLP
3508 Far West Blvd., Ste. 200
Austin, TX 78731
(512) 343-1300
jloughlin@slsaustin.com
Counsel for Hartford Underwriters Insurance
Company, Twin City Fire Insurance Company, TASB
Risk Management Fund, Transportation Insurance
Company, Valley Forge Insurance Company, Truck
Insurance Exchange, and Zenith Insurance Company
Danielle Mary Spinelli
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 663-6901
danielle.spinelli@wilmerhale.com
Counsel for Texas Mutual Insurance Company

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Judd Edward Stone II
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(214) 995-1838
judd.stone@oag. texas. gov

Counsel for Texas Department of Insurance, Division of
Workers' Compensation
Paul D. Clement
Counsel of Record
George W. Hicks, JR.
Michael D. Lieberman
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
george.hicks@kirkland.com
michael.lie berman@kirkland.com
Craig T. Enoch
Amy L. Prueger
Enoch Kever PLLC
7600 N. Capital of Texas Hwy
Building B, Suite 200
Austin, TX 78730

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 6, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
i

Jclary Public, State of Ohio
v,.ycommission E)(pir s
-.

~

. ".

-

j

